HHS/OIG, Audit -"Review of Pension Costs Claimed by Veritus, Inc. of
Pennsylvania,"(A-07-04-00170)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed by Veritus, Inc. of Pennsylvania," (A-07-04-00170)
August 17, 2004
Complete
Text of Report is available in PDF format (397 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine the allowability of pension costs claimed for Medicare reimbursement
by Veritus for Fiscal Years (FY) 1993 through 1997.  Veritus claimed $594,806 of unallowable pension costs.  Veritus
should revise its Final Administrative Cost Proposals for FYs 1993 through 1997 to eliminate unallowable pension costs
of $594,806.  Veritus agreed with our recommendation.